UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-7649
KENNETH H. NEWKIRK,
Plaintiff - Appellant,
v.
WARDEN KISER,
Defendant - Appellee.

Appeal from the United States District Court for the Western District of Virginia, at
Roanoke. GlenE. Conrad, Senior District Judge. (7:19-cv-00648-GEC-PMS)
Submitted: June 17, 202(P~ '

Decided: July 16, 2020

Before WYNN, DIAZ, and FLOYD, Circuit Judges.
Vacated and remanded by unpublished per curiam opinion.
Kenneth H. Newkirk, Appellant Pro Se. Margaret Hoehl O’Shea, OFFICE OF THE
ATTORNEY GENERAL OF VIRGINA, Richmond, Virginia, for Appellee.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Kenneth H. Newkirk appeals the district court’s order denying his application for
leave to proceed in forma pauperis (IFP) and dismissing his 42 U.S.C. § 1983 (2018)
complaint and motion for a preliminary injunction without prejudice. On appeal, Newkirk
challenges the court’s conclusion that he failed to adequately allege that he is in imminent
danger of serious physical injury. We vacate the district court’s order and remand for
further proceedings.
Under the Prison Litigation Reform Act, a prisoner like Newkirk, who has had three
or more actions or appeals dismissed as frivolous, malicious, or for failure to state a claim,
may not proceed without prepayment of fees unless he is in “imminent danger of serious
physical injuiy.” 28 U.S.C. § 1915(g) (2018). We review de novo a district court’s
conclusion that a three-strikes litigant has not adequately alleged that he is in imminent
danger of serious physical injury. See Richey v. Dahne, 807 F.3d 1202, 1206 (9th Cir.
2015).
To satisfy the imminent danger criterion, a prisoner must show that the danger
“exist[ed] at the time the complaint or the appeal [wa]s filed, not when the alleged
wrongdoing occurred.” Martin v. Shelton, 319 F.3d 1048, 1050 (8th Cir. 2003). “[T]he
exception focuses on the risk that the conduct complained of threatens continuing or future
injury, not on whether the inmate deserves a remedy for past misconduct.” Id.; see Pettus
v. Morgenthau, 554 F.3d 293, 296 (2d Cir. 2009) (reiterating that “a three-strikes litigant
is not excepted from the filing fee if he alleges a danger that has dissipated by the time a
complaint is filed”; collecting cases).
2

“[T]he imminent danger exception is essentially a pleading requirement subject to
the ordinary principles of notice pleading.”

Vandiver v. Prison Health Servs., Inc.,

727 F.3d 580, 585 (6th.Cir. 2013) (internal quotation marks omitted). “[A] prisoner who
alleges that prison officials continue with a practice that has injured him or others similarly
situated in the past will satisfy the ‘ongoing danger’ standard and meet the imminence
prong of the three-strikes exception.” Andrews v. Cervantes, 493 F.3d 1047, 1056-57
(9th Cir. 2007). And, “once a prisoner satisfies the exception to the three-strikes rule and
otherwise qualifies for IFP status, the district court must docket the entire complaint and
resolve all of its claims, without requiring the upfront payment of the filing fee.” Id. at
1053-54; see Chavis v. Chappius, 618 F.3d 162, 171-72 & n.7 (2d Cir. 2010) (collecting
cases).
In his complaint, Newkirk described one incident in which he was allegedly
subjected to excessive force and asserted that this was not an isolated occurrence. To the
contrary, he claimed that prison staff members regularly assault inmates without cause and
threaten inmates who complain. See Andrews, 618 F.3d at 1056 (“The common definition
of imminent. . . does not refer only to events that are already taking place, but to those
events ready to take place or hanging threateningly over one’s head.” (internal quotation
marks omitted)).

Accordingly, we conclude that Newkirk articulated “a pattern of

misconduct evidencing the likelihood of imminent serious physical injury.”

Martin,

319 F.3d at 1050; see Bazemore v. BestBuy, 957 F.3d 195, 200 (4th Cir. 2020)(reiterating
that pro se pleadings must be liberally construed).

3

We vacate the district court’s order and remand with instructions that the court grant
Newkirk’s IFP application so that he may proceed with his complaint. We express no
opinion on the merits of Newkirk’s allegations, and we deny as moot his motions for bail
or release pending appeal. We dispense with oral argument because the facts and legal
contentions are adequately presented in the material before this court and argument would
not aid the decisional process.
VA CA TED AND REMANDED

fM)IX § ft
4

1
i

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
KENNETH NEWKIRK, .
Plaintiff,
v.

)

CASE NO. 7:19CV00648

)
)

)

MEMORANDUM OPINION

)

WARDEN KISER,

)
)
Defendant

By: Glen E. Conrad
Senior United States District Judge

)

Kenneth Newkirk, a Virginia inmate proceeding pro se, filed this action under 42 U.S.C.
§ 1983, alleging that prison officials have wrongfully transferred him to a prison facility where
he feels unsafe. Newkirk has not prepaid the requisite filing fee and applies to proceed in forma
pauperis. Upon review, of the record, the court finds that the action must be summarily dismissed
/•*

without prejudice based on Newkirk’s prior civil actions that have been dismissed as frivolous or
for failure to state claim,.
Under 28 U.S.C. § 1915(b), all prisoner litigants suing government entities or officials
are required to pay court filing fees in full, either through prepayment or through installments
withheld from the litigant’s inmate trust account.

Section 1915(g) denies the installment

payment method to prisoners who have “three strikes” — those prisoners who have had three
previous cases or appeals dismissed as frivolous, malicious, or for failure to state a claim, unless
the three-striker inmate show's “imminent danger of serious physical injury.”

28 U.S.C.

§ 1915(g).
Newkirk has at least three prior actions or appeals that have been dismissed as frivolous
or malicious, or for failure to state a claim. See, e.g.. Newkirk v. Shaw. No. 3:14CV426-HEH,
2014 WL 4161991, at *3 (E.D. Va.. Aug. 19, 2014); Newkirk v. Circuit Court. No. 3:14CV372HEH, 2014 WL 4072212, at *3 (E.D. Va. Aug. 14, 2014); Newkirk v. Lemer. No. 3:13CV364-

APAertoir 8

r
KEH, 2014 WL 587174, at *2-5 (E.D. Va. Feb. 14,2014); Newldtkv.Chappell. No. 3:I3CV73- .
HER, 2013 WL 5467232, at *3 (B.D. Va. Sept 30, 2013). See also Newkirk v.Cterke.
3:18CV205-HEH (E.D,Va. Apr. 13,2018) (dismissing under § 1915(g)). Accordingly, Newtdrk
may proceed |n forma:ssiMa* (without prepayment of the filing fee) only if he can show that he
feces imminent danger of serious physical injury. 28 U.S.C. § 1915(g).
Newkirk states that he is confined at fee “SAMbsmental health program” at Wallens
»

t

Ridge State Prison. He alleges that Waller® Ridge officers are cruel to inmates and do not wear
body cameras; \4ritomlite told not to drink fee water; fee religious diets are cold and unsanitary
in unspecified ways; and he cannot get adequate mental health treatment Newkirk describes one
occasion when a correctional officer allegedly tent his left hand upward while escorting him to
the shower and caused him pain for which he took Motrin. This isolated event and Newkirk’s
unsupported generalizations about Wallens Ridge do not support a finding that he was in
continuing, imminent danger of serious physical harm when he filed this action.
Became the records reflect feat Newkirk has at least three “strikes” under § 1915(g) and
he has not demonstrated that he is in imminent danger of physical harm, the court denim him the
opportunity to proceed in foyro^ pauperis ate dismisses fee complaint without prejudice. An
appropriate order will issue this day.
The Cleric is d&teted to send copes of this memorandum opinion and accompanying
order to plaintiff.
ENTER: This $*£ day of October, 2019.
Senior United States District Judge

2

FILED: August 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

■r

No. 19-7649
(7:19-cv-00648-GEC-PMS)

KENNETH H. NEWKIRK
Plaintiff - Appellant
v.
WARDEN KISER
Defendant - Appellee

ORDER

The court denies the petition for rehearing.
Entered at the direction of the panel: Judge Wynn, Judge Diaz, and Judge
Floyd.
For the Court
/s/ Patricia S. Connor, Clerk

